INTERNAL CONTROLS OVER PAYMENTS
  FOR EMERGENCY DISASTER RELIEF
    TRANSPORTATION SERVICES
    Office of the Secretary of Transportation

         Report Number: AV-2006-051
          Date Issued: June 30, 2006
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Internal Controls Over                              Date:    June 30, 2006
           Payments for Emergency Disaster Relief
           Transportation Services
           Office of the Secretary of Transportation
           AV-2006-051
  From:                                                                       Reply to
           David A. Dobbs                                                     Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Acting Director, Office of Intelligence, Security,
            and Emergency Response

           This is our second report assessing internal controls over the emergency disaster
           relief transportation services contract. We issued our initial report, “Internal
           Controls Over the Emergency Disaster Relief Transportation Services Contract”
           (Report Number AV-2006-0321) on January 20, 2006.

           Currently, under the Federal Government’s National Response Plan, the
           Department of Transportation (DOT) is responsible for coordinating and providing
           Federal and civil transportation support, as directed by the Federal Emergency
           Management Agency (FEMA) during times of national emergency. The Office of
           Intelligence, Security, and Emergency Response coordinates those efforts within
           the Department.

           To support the Department’s responsibilities during national emergencies, the
           Federal Aviation Administration’s (FAA) Southern Region awarded a competitive
           contract to Landstar Express America, Inc., in 2002 to provide the bulk of
           transportation services designated to the region by FEMA. When the contract is
           activated during national emergencies, FAA’s Southern Region, with support from
           FAA contracting personnel, coordinates activities of the contract under the
           direction of FEMA. Among the services provided by the contractor during the
           2005 hurricane season were the transportation of commodities such as water, ice,


           1
               OIG reports can be accessed on our website: www.oig.dot.gov.
                                                                                  2


and food to disaster distribution sites and the transport of people to and from
hurricane-affected areas.

In the aftermath of Hurricane Katrina, the immediate transportation of vital
supplies and people to and from hurricane-affected areas was critical to save lives.
The circumstances surrounding that disaster were both dire and extraordinary, and
FAA Southern Region management and the contractor provided an unprecedented
response to the crisis as it unfolded. For example, in the aftermath of the
hurricane, the Emergency Transportation Center and Landstar arranged for over
11,000 trucks to move more than 14,000 truckloads of goods.

During national emergencies, DOT also assigns Government personnel to various
FEMA-designated staging locations. DOT representatives assigned to a base
camp, mobilization site, or Federal or State staging area act as the Contracting
Officer’s Technical Representative and provide contract oversight and direction to
the contractor. Those duties include coordinating transportation requests with the
FAA Southern Region’s Emergency Transportation Center and monitoring the
movement of commodities by recording the arrival and departure of trucks and
trailers checking in and out of the location.

The objective of this audit was to determine if FAA Southern Region’s internal
controls over the contract were sufficient to ensure that the Government receives
the goods and services it pays for. In this case, DOT’s responsibilities are limited
to the transportation of commodities—not the commodities themselves.
Therefore, we focused our efforts on verifying that transportation services were
provided as billed. We visited FAA’s Southern Region the weeks of January 30,
2006, and February 6, 2006, as part of this assessment. We also visited FEMA
warehouses and distribution centers in Louisiana, Mississippi, and Texas to
observe operations (see Exhibit A for a full explanation of our scope and
methodology). This performance audit was performed in accordance with
Generally Accepted Government Auditing Standards prescribed by the
Comptroller General of the United States.


RESULTS IN BRIEF
We found that better internal controls over the emergency disaster relief
transportation services contract are needed to ensure that the Government receives
the transportation services it pays for. While there were procedures in place for
Government personnel at field locations to log trucks and trailers in and out as
they arrived and departed, this documentation was not uniformly sent to FAA’s
Southern Region Emergency Transportation Center and was not used to verify
invoices from the contractor.
                                                                                    3


Instead, contracting officers were relying on documentation provided by the
contractor to verify that transportation services had been provided as billed. While
the documentation offered a level of support for billings, the lack of an
independent verification process meant that contracting officers essentially had to
rely on contractor documentation to support the contractor’s invoices. We believe
that a better internal control process is needed to independently verify that
transportation services were provided as billed.

FAA Southern Region management is aware of the need to develop better internal
controls and is in the process of addressing this issue. In December 2005, system
engineers from FAA Southern Region began developing a system to put all
aspects of administration of the contract on-line.

As designed, the system would require Government personnel at field locations to
verify on-line that they had received trucks and trailers destined for their locations
and to log out shipments on-line when they leave. This would allow personnel
from FAA Southern Region’s Emergency Transportation Center to have real-time
access to the status of all shipments during an emergency. It would also create an
“audit trail” that contracting officers could use to compare the receipt of goods and
services (logged by Government personnel on-site) against contractor invoices
after the emergency has passed. According to system engineers, the intent is to
have the system on-line and operating by early summer 2006 for the next North
Atlantic hurricane season.

In our opinion, the new system as demonstrated to us should significantly improve
internal controls over the contract. The key now will be follow-through. FAA
Southern Region management is facing a very tight window for testing and
implementing the system, and meeting the early summer deadline is critical for
ensuring that improved controls are in place for the next hurricane season.

Once the system is in place and operating, FAA Southern Region management
will need to ensure that contracting officers are using the system to verify
invoices. We are recommending that FAA Southern Region management
incorporate that requirement into the standard operating procedures associated
with administering and managing the contract.

We are also recommending that FAA Southern Region in conjunction with the
Office of Intelligence, Security, and Emergency Response determine if the costs
associated with developing and fielding the new system are reimbursable by
FEMA as part of the Department’s responsibilities under the National Response
Plan.
                                                                                  4


We provided the Office of the Secretary of Transportation (OST) with a copy of
our draft report on May 26, 2006. On June 20, 2006, OST provided us with its
formal response to our draft, which is contained in its entirety in the Appendix. In
general, OST agreed with the findings and facts as discussed in our report and
concurred with our recommendations. Our recommendations and a summary of
OST’s response can be found on page 8 of this report.


FINDINGS

Better Controls Are Needed To Independently Verify Receipts Before
Invoices Are Certified for Payment
We found that better internal controls over the contract are needed to ensure that
the Government receives the transportation services it pays for. Specifically, we
found that FAA Southern Region did not have procedures in place that required
contracting officers to compare invoices to receiving documentation prepared by
Government personnel at field locations before certifying invoices for payment.
While there were requirements for Government personnel at field locations to log
trucks and trailers in and out as they arrived and departed, that documentation was
not used to verify invoices from the contractor.

We tested a statistical sample of 29 task orders (with an approximate value of
$71 million) and their related invoices to determine if we could verify the billings
against receiving documentation sent to the Emergency Transportation Center
from 11 different field locations. We found that the receiving documentation
submitted to the Emergency Transportation Center was either incomplete or
missing. In some cases where receiving documentation had been submitted to the
Emergency Transportation Center, we were able to verify a portion but not all of
the charges being billed by the contractor. For example,

   • One task order in our sample called for moving generators from Fort
     Worth, Texas, to Meridian, Mississippi. The contractor invoice submitted
     for this task order billed FAA to provide the truck to move the generators
     and to hold the trailer at the Meridian location for 20 days at the direction
     of FEMA. In total, the contractor invoiced FAA $30,470.10 for those
     services, which contracting officers certified for payment using
     documentation provided by the contractor.             Upon reviewing the
     arrival/departure log maintained at the field location, we were able to
     independently verify that the truck arrived at Meridian, but were unable to
     verify the length of time the trailer remained there.
                                                                                  5


In other instances, we could not find any Government-prepared receiving
documentation to compare with the invoice. For example,

   • One task order in our sample was for 15 trucks with trailers to pick up and
     transport home-recovery kits from Fort Worth, Texas, to Barksdale Air
     Force Base in Louisiana. The contractor invoice submitted for this task
     order billed FAA for each of the 15 trucks used to transport the
     home-recovery kits and for the 169 days the trailers were held at the
     Barksdale location at the direction of FEMA. In total, the contractor
     invoiced FAA $272,816 for these services, which FAA contracting officers
     certified for payment using documentation provided by the contractor.
     However, we could not verify those charges because there were no
     arrival/departure logs included with the documentation sent from Barksdale
     to the Emergency Transportation Center.            Independent receiving
     documentation is a key component of a good internal control system.

The 29 task orders in our sample were from 11 different field locations, some of
which were still open at the time of our site visits and had not sent any
Government-prepared documentation to the Emergency Transportation Center.
Although documentation from 5 of the 11 field locations had not been submitted
to the Emergency Transportation Center, all the invoices in our sample from these
5 field locations were still processed and approved for payment.

Because receiving documentation from the field locations was inadequate or
unavailable, we were unable to independently verify the invoiced amounts for any
of the 29 task orders in our sample. Likewise, we found that contracting officers
and personnel from the Emergency Transportation Center were instead relying on
documentation provided by the contractor to verify that the transportation services
had been provided as billed. This documentation included manual spreadsheets
tracking the movement of goods and services, shipping and receiving information
maintained by the contractor and posted on the contractor’s website, bills of lading
provided by the contractor, and subcontractor invoices.

While the documentation provided offered a level of support for billings, the lack
of an independent verification process meant that contracting officers essentially
had to rely on contractor documentation to support the contractor’s invoices. We
believe that a better internal control process is needed to independently verify the
receipt of transportation services.
                                                                                  6


FAA Is Developing a New On-Line System That Should Significantly
Improve Controls Over Receipts and Payments
FAA Southern Region management is aware of the need for better internal
controls for verifying the receipt of transportation services billed and is actively
working to address the issue. In December 2005, system engineers from FAA
Southern Region began developing a system to put all aspects of the contract
on-line. The new system (called the Regional Emergency Transportation
Representative portal) would track all task orders issued by FEMA, including the
status of all trucks and trailers dispatched by the contractor during emergencies.

As currently envisioned, the system would require Government personnel at field
locations to verify on-line that they had received trucks and trailers destined for
their locations and to log out shipments on-line when they leave. This would
allow personnel from the Emergency Transportation Center to have real-time
access to the status of all shipments during an emergency. It would also create an
“audit trail” that contracting officers could use to compare the receipt of
transportation services (logged by Government personnel on-site) against
contractor invoices after the emergency has passed.

As of June 2006, FAA Southern Region management has completed the design of
the system and plans to have the system on-line and operating by early summer
2006 for the next North Atlantic hurricane season.

In our opinion, the new system as demonstrated to us should significantly improve
internal controls over the contract. The key now will be follow-through. FAA
Southern Region management is facing a very tight window for testing and
implementing the system, and meeting the early summer deadline is critical for
ensuring that improved controls are in place for the next hurricane season.

Once the system is in place and operating, FAA Southern Region management
will need to ensure that contracting officers are using the system to verify
invoices. We are recommending that FAA Southern Region management
incorporate that requirement into the standard operating procedures associated
with administering and managing the contract.

In addition, we are recommending that FAA Southern Region in conjunction with
the Office of Intelligence, Security, and Emergency Response determine if the
costs associated with developing and fielding the new system are reimbursable by
FEMA as part of the Department’s responsibilities under the National Response
Plan.
                                                                                  7


Actions Are Also Underway To Review Prior Expenditures
While the new system should significantly improve future controls over the
contract, it is important to recognize that the current processes that we observed,
which rely almost entirely on the vendor, have likely been in place since the
inception of the contract in 2002.

This past year, as a result of the extraordinary efforts and resources needed in the
wake of Hurricanes Katrina, Rita, and Wilma, the Department contracted with the
Defense Contract Audit Agency (DCAA) to review billings associated with the
contract during 2005. Given the existing controls over the contract at the time,
those actions were clearly a step in the right direction, but in our opinion
additional measures were still needed to ensure that prices associated with the
contract are reasonable and allowable.

In March, we met with senior officials from the Office of Intelligence, Security,
and Emergency Response; the Office of the Assistant Secretary for Budget and
Programs/Chief Financial Officer; and FAA Southern Region to discuss our
concerns regarding DCAA audit coverage of the contract. We also met with
officials from FEMA in February to determine whether FEMA would reimburse
the Department for audits of the contract.

As a result of those meetings, the Department agreed to request additional DCAA
audits of incurred costs associated with the contract and subsequent discussions
with FEMA officials indicated that FEMA would pay for those audits; however, it
remains dependent on the Office of Intelligence, Security, and Emergency
Response to formalize an agreement with FEMA. Key to this issue is a final
agreement with FEMA, which officials from OST told us they plan to address by
the end of July. However, if an agreement cannot be reached, this issue should, in
our opinion, be brought to the attention of the Deputy Secretary.

The Department also agreed that those audits would include, at a minimum,
justification of best value awards for competitive subcontract awards, documented
support for verbal quotes exceeding $100,000, and cost or pricing data and the
contractor’s documented evaluation when only one bid was obtained. The
Department plans to work in consultation with the Office of Inspector General to
formulate the scope of the review before requesting additional DCAA audits.

In our opinion, the Department’s action to engage DCAA is a sound business
approach for ensuring the Government’s interests and addresses our concerns
regarding prior expenditures. The key now will be follow-through.
                                                                                 8


RECOMMENDATIONS
We recommend that FAA Southern Region management, in conjunction with the
Office of Intelligence, Security, and Emergency Response:

   1. Implement appropriate policies and procedures requiring contracting
      officers to verify contractor invoices against receiving documentation in the
      Regional Emergency Transportation Representative portal once the system
      has been integrated and is fully operational.

   2. Determine if the costs associated with developing and fielding the Regional
      Emergency Transportation Representative portal are reimbursable by
      FEMA as part of the Department’s responsibilities under the National
      Response Plan and if so, recoup those costs.

   3. Follow through on its commitment to have DCAA complete audits of
      incurred costs associated with the contract and inform the Office of
      Inspector General of the results of those audits.


AGENCY COMMENTS
We sent OST our draft report on May 26, 2006. On June 20, 2006, OST provided
us with its formal response, which is contained in its entirety in the Appendix. In
general, OST agreed with the findings and facts as discussed in our report and
concurred with our recommendations.

   • In response to recommendation number one, OST and FAA agreed to
     promulgate appropriate procedures and policies for using the Regional
     Emergency Transportation Representative portal for documenting
     transportation service receipt within 90 days of the system’s full
     implementation.

   • In response to recommendation number two, OST and FAA agreed to meet
     with officials from FEMA by the end of July to discuss whether costs
     associated with developing and fielding the system are reimbursable as part
     of the Department’s responsibilities of the National Response Plan.

   • In response to recommendation number three, OST and FAA agreed to
     meet with officials from FEMA by the end of July to discuss engaging
     DCAA to conduct audits of incurred costs associated with the contract and
     agreed to provide us with the proposed DCAA audit objectives prior to
     initiating those reviews.
                                                                            9


ACTIONS REQUIRED
We consider the Department’s planned actions fully responsive to our
recommendations and consider them resolved, pending the implementation
timeframes identified in OST’s response. Please provide us with a copy of the
procedures and policies for using the Regional Emergency Transportation
Representative portal for documenting transportation service receipt once they
have been implemented. We are also requesting that you provide us with
documentation on the outcome of the meetings with FEMA to determine if the
new system’s costs are reimbursable and to engage DCAA in additional audits of
the contract, as well as the proposed objectives for those reviews.

We appreciate the courtesy extended to our staff during our site visits to FAA
Southern Region. If you have any questions or need further information, please
contract me at (202) 366-0500 or my Program Director, Dan Raville,
at (202) 366-1405.



                                      #


cc:   Assistant Secretary for Budget and Program/
       Chief Financial Officer
      Carolyn Blum, ASO-1
      Martin Gertel, M-1
                                                                                 10




EXHIBIT A. SCOPE AND METHODOLOGY
This review was conducted in accordance with Generally Accepted Government
Auditing Standards prescribed by the Comptroller General of the United States
and included such tests as we considered necessary to provide reasonable
assurance of detecting abuse or illegal acts.

We performed our initial internal control assessment on October 18 and 19, 2005,
and the week of October 24 through October 28, 2005. During this period, we
observed daily operations at two FEMA warehouses, a FEMA distribution center,
and several other FEMA field locations in Louisiana, Mississippi, and Texas to
obtain an understanding of the process. We interviewed representatives of DOT,
FEMA, and the contractor to obtain an understanding of how each field location
processed task orders. We focused our efforts on documenting the roles and
responsibilities of each agency represented at the field location and the
Government documentation used for receiving and transferring goods and
services.

During the week of January 30, 2006, through February 3, 2006, we visited the
FAA Southern Region and interviewed the manager of the Emergency
Transportation Center to determine how FAA ensured that goods and services had
actually been received before processing invoices for payment. To test this
process, we conducted the following audit steps. First, we determined which task
orders had been invoiced by the contractor. We then drew a random, stratified
statistical sample of 29 task orders out of the 171 that had been invoiced. For each
task order in our sample, we determined whether or not that particular location
was open or had already been closed. If the location had been closed, we
determined if documentation from that particular location had been sent to the
Emergency Transportation Center. If the location was still open, we replaced this
item if a replacement was available.

We reviewed the information provided by the field locations to determine what
type of independent Government information was being collected and submitted to
the Emergency Transportation Center regarding the receipt of goods and services.
We then tried to verify billings on invoices against independent
Government-prepared documentation (such as a Government Bill of Lading and
arrival/departure logs) to determine if there was documentation to support the
charges.




Exhibit A. Scope and Methodology
                                11




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comments
                                12




Appendix. Management Comments
